TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improved Controls Are Needed to Ensure
                      That All Planned Corrective Actions
                       for Security Weaknesses Are Fully
                     Implemented to Protect Taxpayer Data



                                      September 27, 2013

                              Reference Number: 2013-20-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


IMPROVED CONTROLS ARE NEEDED                          recommendations, and PCAs in the Department
TO ENSURE THAT ALL PLANNED                            of the Treasury’s Joint Audit Management
CORRECTIVE ACTIONS FOR SECURITY                       Enterprise System (JAMES). The Office of
WEAKNESSES ARE FULLY                                  Internal Control took a major step to strengthen
                                                      the IRS’s management control program by
IMPLEMENTED TO PROTECT
                                                      recently publishing new guidance on monitoring
TAXPAYER DATA                                         internal controls for the PCAs. However,
                                                      guidance that was in effect since May 2004 was

Highlights                                            not sufficient.
                                                      During our audit, TIGTA determined that
Final Report issued on                                eight (42 percent) of 19 PCAs that were
September 27, 2013                                    approved and closed as fully implemented to
                                                      address reported security weaknesses from
Highlights of Reference Number: 2013-20-117           prior TIGTA audits were only partially
to the Internal Revenue Service Chief Financial       implemented. These PCAs involved systems
Officer and Chief Technology Officer.                 with taxpayer data. In addition, documents did
                                                      not support the closure of the PCAs, and
IMPACT ON TAXPAYERS                                   supporting documents were not always
                                                      uploaded to the JAMES and were not readily
Management controls are a major part of               available. The Office of Internal Control also
managing an organization and provide                  has a responsibility to audit IRS PCAs to ensure
reasonable assurance that organizational              that they are implemented; however, it did not
objectives are achieved. When weaknesses are          conduct the audits.
identified within an organization, management
controls dictate that these weaknesses need to        WHAT TIGTA RECOMMENDED
be tracked, monitored, and reported to ensure
that they are corrected. Our audit identified         TIGTA recommended that the IRS further
weakened management controls in the IRS over          strengthen its management controls to adhere to
its closed planned corrective actions (PCA) for       internal control requirements, provide refresher
the security of systems involving taxpayer data.      training to employees involved in the JAMES
When the right degree of security diligence is        process, audit the corrective actions for closed
not applied to systems, disgruntled insiders or       PCAs, and change the status of closed PCAs to
malicious outsiders can exploit security              open for those that were partially implemented.
weaknesses and may gain unauthorized access.          In their response, IRS management agreed with
                                                      five of our six recommendations and plans to
WHY TIGTA DID THE AUDIT                               issue guidance on internal control requirements,
                                                      provide training, and revise the procedures to
This audit was part of our statutory requirement      improve the IRS’s management controls over
to annually review the adequacy and security of       the PCAs.
IRS technology, and it addresses the IRS major
management challenge of Security of Taxpayer          IRS management partially agreed with the sixth
Data and Employees. The overall objective was         recommendation to upload documentation into
to determine whether closed corrective actions        the JAMES for previously closed PCAs, pending
to security weaknesses and findings reported by       the completion of a cost/benefit analysis and
TIGTA have been fully implemented, validated,         risk-based approach. TIGTA believes the IRS
and documented as implemented.                        should complete our recommendation as stated,
                                                      which will ensure that all PCAs over security
WHAT TIGTA FOUND                                      weaknesses are implemented as reported. In
The Chief Financial Officer’s Office of Internal      addition, the IRS will be in compliance with the
Control administers the IRS’s management              Department of the Treasury’s mandate to upload
control program and is responsible for entering,      supporting documentation to the JAMES.
monitoring, and tracking audit report findings,
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER AND CHIEF TECHNOLOGY
                OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improved Controls Are Needed to Ensure That
                             All Planned Corrective Actions for Security Weaknesses Are Fully
                             Implemented to Protect Taxpayer Data (Audit #201320028)

 This report presents the results of our review to determine whether closed corrective actions to
 security weaknesses and findings reported by the Treasury Inspector General for Tax
 Administration in prior audits have been fully implemented, validated, and documented as
 implemented. We conducted this audit as part of our statutory requirement to annually review
 the adequacy and security of Internal Revenue Service technology. This review addresses the
 major management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Alan R. Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                  Improved Controls Are Needed to Ensure That
                            All Planned Corrective Actions for Security Weaknesses
                                Are Fully Implemented to Protect Taxpayer Data




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Weakened Management Controls Contributed to
          Information Security Planned Corrective Actions That
          Were Not Fully Implemented ....................................................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 9

                    Recommendations 3 through 5:......................................... Page 10

                    Recommendation 6:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Assessment of Eight Planned Corrective Actions
          That Were Not Fully Implemented ............................................................... Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
              Improved Controls Are Needed to Ensure That
        All Planned Corrective Actions for Security Weaknesses
            Are Fully Implemented to Protect Taxpayer Data




                     Abbreviations

CDW           Compliance Data Warehouse
CFO           Chief Financial Officer
CTO           Chief Technology Officer
GAO           Government Accountability Office
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
ISR           Infrastructure Security and Reviews
JAC           JAMES Audit Coordinators
JAMES         Joint Audit Management Enterprise System
OIC           Office of Internal Control
PCA           Planned Corrective Actions
POA&M         Plan of Action and Milestones
RAS           Research, Analysis, and Statistics
TIGTA         Treasury Inspector General for Tax Administration
                                Improved Controls Are Needed to Ensure That
                          All Planned Corrective Actions for Security Weaknesses
                              Are Fully Implemented to Protect Taxpayer Data




                                         Background

Internal controls, which are synonymous with management controls, are a major part of
managing an organization. They comprise the plans, methods, and procedures used to meet
missions, goals, and objectives; and in doing so, they support performance-based management.
They also serve as the first line of defense in safeguarding assets and preventing and detecting
errors and fraud. They help government program managers achieve desired results through
effective stewardship of public resources. Systems of internal control provide reasonable
assurance that the following objectives are being achieved: 1) effectiveness and efficiency of
operations, 2) reliability of financial reporting, and 3) compliance with applicable laws and
regulations.
The Department of the Treasury implemented the Joint Audit Management Enterprise System
(JAMES) for use by all bureaus to track, monitor, and report the status of internal control audit
results. The JAMES tracks specific information on issues, findings, recommendations, and
planned corrective actions (PCA) from audit reports issued by the Government Accountability
Office (GAO), the Treasury Inspector General for Tax Administration (TIGTA), and the
Treasury Office of Inspector General. The Department of the Treasury uses this information to
assess the effectiveness and progress of bureaus in correcting their internal control deficiencies
and implementing audit recommendations. The JAMES also allows bureau users to run reports
to assess the effectiveness of their programs. Tracking issues, findings, recommendations, and
the current status of the PCAs is mandatory to comply with the intent of the standard of internal
control, the Federal Managers’ Financial Integrity Act of 1982,1 Office of Management and
Budget Circulars, and Treasury Directives.
At the Internal Revenue Service (IRS), the Chief Financial Officer’s (CFO) Corporate Planning
and Internal Control Unit, specifically the Office of Internal Control (OIC), administers the
management control program. The OIC’s primary responsibilities include entering, monitoring,
and tracking audit report findings, recommendations, and PCAs in the JAMES and reviewing
and validating all status updates entered into the JAMES by the JAMES Audit Coordinators
(JAC). The JACs, who are selected from IRS functions, are responsible for assisting
management with the internal control program and serving as their function’s primary liaison
with the OIC.




1
    31 U.S.C. §§ 1105, 1113, and 3512.
                                                                                            Page 1
                             Improved Controls Are Needed to Ensure That
                       All Planned Corrective Actions for Security Weaknesses
                           Are Fully Implemented to Protect Taxpayer Data



The JACs also assist management with meeting their reporting requirements under the Federal
Managers’ Financial Integrity Act, the Federal Financial Management Improvement Act of
1996,2 and other audit reporting requirements. The JACs ensure that the most current status of
action plans are posted in the JAMES and that PCAs are timely implemented. The JAC’s
primary responsibilities include preparing and submitting verification of the completion of the
PCAs to the OIC; maintaining complete audit files to include documentation of corrective
actions taken, executive certification of status updates, and concurrence memoranda; monitoring
and updating the status of the PCAs; and uploading and entering all implemented status updates
and supporting documentation in the JAMES.
Although the IRS has implemented this reporting and tracking process to evaluate and track
corrective actions and address previously reported weaknesses, the GAO reported in
March 20123 and in March 20134 that the IRS did not promptly correct known security
vulnerabilities and that its process was not always working as intended.
This review was performed at the offices of the CFO and the Chief Technology Officer (CTO) in
Washington, D.C., New Carrollton, Maryland, and Memphis, Tennessee, during the period
February through July 2013. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
  Pub. L. No. 104-208, 110 Stat. 3009.
3
  GAO, GAO-12-393, IRS Needs to Further Enhance Internal Control over Financial Reporting and Taxpayer Data
p.23 (March 16, 2012).
4
  GAO, GAO-13-350, IRS Has Improved Controls but needs to Resolve Weaknesses p.19 (March 15, 2013).
                                                                                                   Page 2
                              Improved Controls Are Needed to Ensure That
                        All Planned Corrective Actions for Security Weaknesses
                            Are Fully Implemented to Protect Taxpayer Data




                                      Results of Review

On April 26, 2013, the OIC took a major step to strengthen the IRS’s management control
program by publishing the new Internal Revenue Manual (IRM), 1.4.30, Monitoring Internal
Control Planned Corrective Actions, to strengthen existing policies and procedures on internal
controls. The OIC previously issued guidance, Reporting Procedures for Management Controls
Coordinators, on May 25, 2004. However, this guidance was not sufficient to result in a process
that was effective in supporting the management control program.

Weakened Management Controls Contributed to Information Security
Planned Corrective Actions That Were Not Fully Implemented
To assess the effectiveness of the IRS’s internal control program, we selected for review a
judgmental sample5 of 19 PCAs for security weaknesses reported by TIGTA that had been closed
as completed.6 Our analysis showed that eight (42 percent) PCAs had not been fully
implemented and should not have been closed. All eight PCAs involve systems containing
taxpayer data. Examples of corrective actions that were not fully implemented include servers
not being scanned for critical and major vulnerabilities, such as default and blank passwords;
databases without the latest software updates; and user accounts with long periods of inactivity
that were not locked. The causes for these conditions include the IRS changing the scanning tool
for its systems, which required additional time for organizational approval and the need to ensure
that useable information was generated by those tools; systems development constraints; and the
need for the IRS to minimize the impact of system changes to its users. As a result, the IRS is
increasing its exposure to risk for malicious users exploiting accounts with default or blank
passwords to steal taxpayer identities and carry out fraud schemes. The IRS is also increasing its
susceptibility to performance and security weaknesses inherent in older software versions, its
exposure of taxpayer data to unauthorized disclosure, and its exposure to disruptions of system
operations. Appendix IV provides the details of our assessment of the eight closed PCAs that
were partially implemented.
The IRS has specific guidance over its internal control program. The OIC prior guidance
requires that proper documentation is maintained to verify implementation of a corrective action.
The recently issued IRM 1.4.30 requires all supporting documentation to be uploaded and stored
in the JAMES, along with a completed, signed, and dated Form 13872, Planned Corrective


5
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
6
 We conducted site visits and performed system accesses of IRS computer systems located in Memphis, Tennessee,
and the Washington, D.C., and New Carrollton, Maryland, areas.
                                                                                                          Page 3
                              Improved Controls Are Needed to Ensure That
                        All Planned Corrective Actions for Security Weaknesses
                            Are Fully Implemented to Protect Taxpayer Data



Action Status Update for TIGTA/GAO/MW/SD/TAS/REM Reports,7 or other executive
certification. The prior guidance and IRM necessitate that the OIC reject the status of a
corrective action if signatures are not received, missing, or invalid. Prior to the newly issued
manual, a draft version of these requirements was forwarded to IRS business functions as early
as July 2012. This IRM, along with the OIC’s prior guidance, further require the JACs to
maintain complete audit files to include documentation of corrective actions taken, certification
of status updates via executive’s e-mail or electronic signature, and concurrence memoranda.
Also, three of the IRS’s larger business divisions8 have their own respective IRMs, which some
smaller IRS business functions use for guidance. These IRMs require the same process and level
of documentation and maintenance.
Additionally, the GAO Standards for Internal Control in the Federal Government9 provide that
all transactions and other significant events need to be clearly documented and the
documentation should be readily available for examination. In addition, all documentation and
records should be properly managed and maintained. The standards also provide that key duties
and responsibilities need to be divided or segregated among different people to reduce the risk of
error or fraud. This includes separating the responsibilities for authorizing transactions,
processing and recording them, reviewing them, and handling any related assets. No one
individual should control all key aspects of a transaction or event. The separation of duties
requirement is also addressed in IRM 10.8.1, Information Technology Security Policy and
Guidance, which specifically provides that an employee may simultaneously hold more than one
role; however, while performing the duties of one role, that role shall not be used to perform the
duties of another. Each role is to be independent of the other.
For the eight PCAs that were not fully implemented and should not have been closed, we found
the following internal control deficiencies.
       In three PCAs, we were not provided any documentation to support the closure of the
        corrective action. For the remaining five PCAs, the supporting documentation did not
        fully support the closed corrective action.
       In four PCAs, the Form 13872 or equivalent did not include the appropriate executive
        approval. In two, we identified a separation of duties weakness. The JAC, whose
        primary responsibility includes preparing and submitting verification of the completion of
        the PCAs, signed as the executive approving the closure.



7
  The definition of the acronyms in the title of Form 13872 that are not self-explanatory are MW for material
weakness; SD for significant deficiency; TAS for Taxpayer Advocate Service; and REM for remediation plan.
8
  The three larger divisions are the Large Business and International, Wage and Investment, and Small Business/
Self-Employed Business Divisions.
9
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Internal Control: Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                         Page 4
                           Improved Controls Are Needed to Ensure That
                     All Planned Corrective Actions for Security Weaknesses
                         Are Fully Implemented to Protect Taxpayer Data



      In all eight PCAs, the OIC did not audit the corrective actions to ensure their
       implementation and proper closure.
Because the exception sample size of eight PCAs was relatively small, we conducted an
assessment of these internal control deficiencies on a larger sample from the entire population of
PCAs for security weaknesses reported by TIGTA to provide a better perspective. As such, we
conducted further tests of a population of 147 PCAs for security weaknesses reported by TIGTA
that were closed from October 2008 through December 2012. In addition, we selected a
judgmental sample of 69 PCAs to determine whether the IRS was compliant with the previously
mentioned procedures and standards.

Documentation did not fully support the closure of the PCAs
Through the JAMES, we analyzed documents that were available on the system and, when
necessary, requested additional supporting documentation from the JACs and business functions
to determine if closures of the 69 PCAs were supported. Our assessment is presented in
Figure 1, followed by additional details about the results of our analysis.
                          Figure 1: Assessment of Supporting
                         Documentation for the 69 Sampled PCAs




       Source: TIGTA analysis of the 69 sampled PCAs.

      22 (32 percent) did not support the closure of the PCAs. Some of the reasons the PCAs
       were not supported included supporting documentation was not maintained in the
       JAMES or with the office responsible for implementing the PCAs; supporting
       documentation was maintained on only one computer that crashed and no other copies
       exist; supporting documentation, according to the IRS, was not needed because the PCA
       was closed during the course of the audit and the weakness did not need to be tracked in

                                                                                            Page 5
                          Improved Controls Are Needed to Ensure That
                    All Planned Corrective Actions for Security Weaknesses
                        Are Fully Implemented to Protect Taxpayer Data



       the JAMES; and the supporting documentation was only the Form 13872. Typically, the
       Form 13872 provides the same information from the IRS’s management response to
       TIGTA’s draft reports, but written in past tense with specific actions taken.
      23 (33 percent) partially supported the closure of the PCAs. For these, the supporting
       documentation for all steps or actions as stated in the PCAs was requested, but it was not
       provided.
      24 (35 percent) fully supported the closure of the PCAs.

Supporting documentation was not uploaded to the JAMES
On November 1, 2010, the Department of the Treasury mandated that its bureaus upload
supporting documentation to the JAMES. Prior to that date, Treasury bureaus, including the
IRS, were not required to upload any supporting documentation when the PCAs were closed.
While supporting documentation was required to be uploaded to the JAMES, the OIC only
enforced uploading the Form 13872. For the 69 judgmental sampled PCAs, 11 were closed after
the mandate. The IRS did not upload any additional documentation supporting the
implementation of the corrective action for nine of 11 PCAs.
One of the nine PCAs related to a corrective action that was superceded; however, there was no
documentation in the JAMES that readily provided a reference to the new PCA. Generally, the
PCAs are superceded when the same or similar recommendations are made for previously
identified and reported weaknesses. We presented our concern with the superceded PCAs to
OIC management. They acknowledged there is no reference to the new PCA but also cautioned
that the number of superceded PCAs is minimal. Therefore, they agreed to implement a process
that will include inputting reference information into the PCA record and uploading source
documents to the JAMES. As a result of their actions, TIGTA will not make a recommendation
for superceded PCAs.
Despite established requirements, we identified several factors contributing to why supporting
documentation was not uploaded to the JAMES.
      There is no one definitive source for guidance. While the OIC has guidance, last issued
       on May 25, 2004, they are not widely known or used by the business functions. The OIC
       did not establish a Service-wide IRM over the JAMES internal control process until
       April 2013. While some IRS business functions have referenced existing IRM guidance
       from other business divisions on the internal control process, others have established their
       own standard operating procedures over the management control procedures that differ
       slightly.
      The OIC did not consistently enforce existing requirements for supporting documentation
       to be maintained by the JACs and for it to be uploaded to the JAMES. For example, the
       OIC required that only Form 13872 be uploaded to the JAMES despite established

                                                                                            Page 6
                           Improved Controls Are Needed to Ensure That
                     All Planned Corrective Actions for Security Weaknesses
                         Are Fully Implemented to Protect Taxpayer Data



       requirements from the business functions and the OIC’s draft IRMs for all supporting
       documentation. Prior to the publication of the new IRM, OIC personnel stated that they
       could not enforce the supporting documentation requirement on the business functions
       until their IRM was issued.
      The Department of the Treasury mandates supporting documentation be uploaded to the
       JAMES but does not define supporting documentation because each bureau is unique and
       it wanted to offer them the flexibility to make that decision.
      The OIC does not always validate whether each PCA was implemented. OIC personnel
       will validate updates to the IRM and the language on the Form 13872 to ensure that the
       corrective action addresses the weakness and finding.

Supporting documentation did not include appropriate executive approval
From our population of 147 security-related PCAs where a Form 13872 or equivalent was
available, we found that 30 (50 percent) of 60 PCAs were signed by an executive not responsible
for correcting the weaknesses. The executives signing as the approving official were CTO
Program Oversight managers over the JACs with no delegated responsibility for signing. One
manager stated that his or her signature only attested to the language in the corrective action
narrative on the Form 13872 that addressed the PCA and not a validation of the actions taken. In
a further analysis of the 30 PCAs, we determined that the Form 13872 in 15 (50 percent)
contained a typed name that was not associated with the originating e-mail from the executive.
A typed name approval is acceptable if the form is associated with the originating e-mail from
the executive, but the e-mails were never retained. In addition, 11 (37 percent) of the 30 PCAs
appeared to have a conflict with separation of duties. The CTO JAC who signed the Form 13872
also signed as the approving official.
To account for executive review and approval, the Cybersecurity office created an equivalent
template to the Form 13872. As stated earlier, a typed name is acceptable if associated with the
originating e-mail from the executive. Early this year, the CTO office, recognizing this
deficiency, created a new signature line for executives responsible for the corrective actions to
sign on the Form 13872. This process was unnecessary because the requirement already exists
on the form in the “approving official” box. Also, the OIC does not validate the signatures on
the form despite it being a requirement in its recently issued IRM, and its prior guidance to reject
the status of a corrective action if the executive certification is missing, invalid, or not received.
The OIC stated that it reviews the forms for a signature and that validation of the signature is the
responsibility of the JACs.
The conditions existed in the CTO office because responsibilities changed when duties were
reassigned or transferred from one employee to another or due to organizational changes. For
example, prior to the organizational transfer of responsibilities from the Cybersecurity office to
the Program Oversight office, executives responsible for implementing the corrective actions

                                                                                               Page 7
                             Improved Controls Are Needed to Ensure That
                       All Planned Corrective Actions for Security Weaknesses
                           Are Fully Implemented to Protect Taxpayer Data



were required to sign the Form 13872 before sending it to the OIC. After the transfer of
responsibility, the Program Oversight manager signed the form, approving that the corrective
actions supported the PCA, before it was uploaded to the JAMES. We were concerned with this
process because the manager was attesting to the language in the corrective action narrative that
addressed the PCA rather than a validation of the actions taken.

Closed corrective actions were not audited to ensure their implementation
As part of its roles and responsibilities, the OIC, which administers the IRS’s management
control program, has the responsibility for auditing corrective actions. The OIC did not audit
corrective actions as required. During our discussions, the OIC cited concerns with
implementing this responsibility due to lack of expertise.
Our analysis identified the PCAs that were prematurely closed, which illustrates the importance
of the audits to ensure proper implementation. For example, in one report,10 TIGTA
recommended that database security control weaknesses identified during the review be
remediated. The PCA stated that the weaknesses will be placed into a Plan of Action and
Milestones (POA&M), while giving priority to correcting or mitigating high-risk weaknesses.
As the PCA implies, not all weaknesses identified during the audit were remediated, but the PCA
was closed as implemented. In a TIGTA follow-up review on database security controls, 11 we
could not determine if all weaknesses were tracked, addressed, or closed for this PCA. As such,
we made the same recommendation that all identified vulnerabilities be remediated.
Without an effective management control process, the CFO cannot be assured that the
management control program is operating as intended. When this happens, the IRS cannot
assure its stakeholders, which include the Department of the Treasury, that the PCAs were
implemented as reported in correcting security vulnerabilities. The IRS is subject to reviews of
the JAMES information by the Department of the Treasury and may not be able to support the
corrective actions taken or that they were fully implemented. When reviews occur, the IRS
would provide a weakened assurance that corrective actions in the JAMES have been completed
and that an executive responsible for implementing the corrective action is attesting to the
actions taken as stated on the Form 13872.
Moreover, without a central repository, supporting documentation could be unavailable and lost,
and much time and resources could be spent locating documentation to support the PCAs, as was
experienced during our audit. Our request to obtain supporting documentation took months
before the IRS fully exhausted its resources to provide some of the documentation. In addition,
from a security perspective, the lack of fully effective compensating and mitigating controls


10
   TIGTA, Ref. No. 2007-20-129, Standard Database Security Configurations Are Adequate, Although Much Work
Is Needed to Ensure Proper Implementation p. 7 (Aug. 2007).
11
   TIGTA, Ref. No. 2011-20-044, Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are
Protected p. 4 (May 2011).
                                                                                                    Page 8
                           Improved Controls Are Needed to Ensure That
                     All Planned Corrective Actions for Security Weaknesses
                         Are Fully Implemented to Protect Taxpayer Data



impair the IRS’s ability to ensure that its financial and taxpayer information is secure from
internal and external threats. This reduces the IRS’s assurance that its financial statement and
information are fairly presented or reliable and that sensitive IRS and taxpayer information is
sufficiently safeguarded from unauthorized disclosure, modification, and external intrusions.

Recommendations
We recommended that the Chief Financial Officer should:
Recommendation 1: Issue a memorandum to all business functions emphasizing the new
IRM to ensure that all adhere to the requirements governing the internal control process for the
JAMES. These requirements include: 1) uploading all documents supporting the status of,
corrective actions taken on, and closure of the corrective action to the JAMES for both past,
beginning November 1, 2010, and present PCAs; at a minimum, supporting documentation
should be uploaded for corrective actions to security weaknesses and 2) certification by the
executive responsible for the corrective action on its status updates and completion.
       Management’s Response: IRS management partially agreed with this
       recommendation. The CFO will issue a memorandum to all business units emphasizing
       adherence to the OIC IRM to ensure that requirements governing the internal control
       process for the JAMES, with respect to maintaining supporting documents for current
       closures and executive certification, are met. The CFO will work with the business units
       to assess the level of effort and cost/benefit to be derived from uploading documentation
       into the JAMES for previously closed corrective actions. The OIC will issue guidance
       following a risk-based approach for complying with the retroactive aspects of this
       recommendation, as appropriate.
       Office of Audit Comment: The IRS management’s response addresses our
       recommendation as it pertains to new closures of corrective action, but may not
       necessarily address previously closed corrective actions. As previously noted, our audit
       found only 24 (35 percent) of 69 closed corrective actions were fully supported with
       adequate documentation. While we recognize the potential resource commitment needed
       to fully implement our recommendation, we believe the IRS should complete our
       recommendation as stated, which will ensure that all corrective actions over security
       weaknesses are implemented as reported. In addition, fully implementing our
       recommendation will ensure that the IRS is in compliance with the Department of the
       Treasury’s mandate to upload supporting documentation to the JAMES.
Recommendation 2: Coordinate with business function executives to ensure that their
existing guidance for the JAMES internal control process aligns with the new OIC IRM.
       Management’s Response: IRS management agreed with this recommendation. The
       CFO will issue a memorandum to all business unit executives advising them that 1) their

                                                                                            Page 9
                           Improved Controls Are Needed to Ensure That
                     All Planned Corrective Actions for Security Weaknesses
                         Are Fully Implemented to Protect Taxpayer Data



       existing guidance for the JAMES internal control process must be aligned with the new
       OIC IRM, as appropriate and 2) their revisions should be included in their next scheduled
       IRM update to comply with this corrective action.
Recommendation 3: Provide refresher training to all JACs and other IRS personnel who
perform similar duties as the JAC over the JAMES internal control process and documentation
requirements as a result of our findings and issuance of the new IRM.
       Management’s Response: IRS management agreed with this recommendation. The
       CFO will develop a program to provide refresher training to all JACs and other IRS
       personnel who perform similar duties as the JACs over the JAMES internal control
       process and documentation requirements.
Recommendation 4: Ensure that those who sign the Form 13872 as the JAC do not also sign
as the approving official to comply with proper separation of duties standards.
       Management’s Response: IRS management agreed with this recommendation. The
       OIC is now verifying that those who sign the Form 13872 as the JAC do not also sign as
       the approving official. The CFO will also issue a memorandum to all business unit
       executives advising them that proper separation of duties standards must be adhered to in
       approving the closure of corrective actions.
Recommendation 5: Audit the IRS’s completed corrective actions to findings and
weaknesses that result from external audit agencies’ issued reports beginning with those TIGTA
identified as partially implemented once they are fully implemented. This action will assist with
providing assurance that the PCAs are fully implemented, sufficient documentation is maintained
in the JAMES, and the appropriate signatures are on the required documents. We recognize the
potential resource commitment needed to audit these completed corrective actions and suggest
that this action can be done periodically, at least annually, by conducting a statistical sample of
the completed corrective actions. The results can be shared with the respective business
functions.
       Management’s Response: IRS management agreed with this recommendation. The
       OIC will develop a program to formally audit completed corrective actions annually if
       adequate resources can be identified. Under this program, the OIC will evaluate the use
       of statistical sampling techniques and determine the appropriate number of completed
       corrective actions to be reviewed. These reviews will be conducted with the business
       units, and the results will be shared with them.
       Office of Audit Comment: The IRS management’s response outlined a plan to audit
       completed corrective actions; however, its implementation appears to be contingent upon
       identifying adequate resources. While we recognize the potential resource commitment
       needed to fully implement our recommendation, we encourage the IRS to complete our


                                                                                          Page 10
                          Improved Controls Are Needed to Ensure That
                    All Planned Corrective Actions for Security Weaknesses
                        Are Fully Implemented to Protect Taxpayer Data



       recommendation as stated, which will provide better assurance that corrective actions in
       the JAMES have been completed.
We also recommended that the CTO, the Director, Office of Research, Analysis, and
Statistics (RAS), and the Commissioner, Wage and Investment Division, should:
Recommendation 6: Coordinate with the OIC and the Department of the Treasury, Office of
the Deputy CFO, Risk and Control Group, to change the PCA status from closed to open on the
JAMES for the corrective actions TIGTA identified as partially implemented in Appendix IV.
The status of these PCAs should remain open until they are fully implemented as agreed to in the
prior TIGTA reports.
       Management’s Response: IRS management agreed with this recommendation. The
       CFO will work with the appropriate business units and the Department of the Treasury to
       reopen seven previously closed corrective actions to establish new corrective actions that
       fulfill the original audit recommendations. The new corrective actions will remain open
       until fully implemented. The CFO will work with TIGTA and the appropriate business
       unit on the one remaining closed corrective action to determine whether or not it has been
       fully implemented.




                                                                                         Page 11
                                 Improved Controls Are Needed to Ensure That
                           All Planned Corrective Actions for Security Weaknesses
                               Are Fully Implemented to Protect Taxpayer Data



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether closed corrective actions to
security weaknesses and findings reported by the TIGTA in prior audits have been fully
implemented, validated, and documented as implemented. To accomplish our objective, we:
I.         Determined whether the IRS, specifically the offices of the CFO and the CTO, have an
           effective process and are complying with the requirements for closing completed PCAs.
           A. Identified and reviewed policies, procedures, and guidelines related to the
              identification, tracking, and closing of the PCAs reported in the JAMES.
           B. Interviewed OIC and JAC personnel to document and assess the procedures and their
              responsibilities over the JAMES process and to determine the cause when
              discrepancies were identified.
           C. Researched the IRM and IRS guidance to determine whether other policies,
              procedures, and guidelines exist regarding the closure of findings and the PCAs
              tracked on IRS systems that could augment and improve the closing actions of
              findings and recommendations within the JAMES process.
II.        Determined whether the PCAs were fully implemented, validated, and documented as
           implemented.
           A. Selected a judgmental sample1 of 69 from 147 closed and implemented PCAs from
              the JAMES for the period October 2008 through December 2012. We used a
              judgmental sample because we were not projecting the review results.
           B. Determined whether the sample of closed security weaknesses, findings, and PCAs
              were fully closed. Specifically, we determined whether:
                1. Supporting documents, Form 13872, Planned Corrective Action Status Update for
                   TIGTA/GAO/MW/AD/TAS/REM Reports, and other supporting documentation
                   were uploaded in the JAMES.
                2. Form 13872 contained an executive signature related to the business unit
                   responsible for the corrective action.
                3. Documentation supported implementation of the PCA and the closure of the
                   weakness.

1
    A judgmental sample is a nonstatistical sample, the results of which cannot be projected to the population.
                                                                                                              Page 12
                          Improved Controls Are Needed to Ensure That
                    All Planned Corrective Actions for Security Weaknesses
                        Are Fully Implemented to Protect Taxpayer Data



           4. Physical testing of the system to ensure that the PCAs had been fully
              implemented. We selected a judgmental sample of 19 closed and implemented
              PCAs for validation. We used a judgmental sample because we were not
              projecting the review results and due to budget constraints from the Federal
              Government sequestration.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the OIC’s policies, procedures, and
practices for the identification, tracking, and closing of the PCAs reported in the JAMES. We
evaluated these controls by interviewing OIC management and employees and the JACs,
reviewing documents supporting the closure of the PCAs, and physically validating the PCAs.




                                                                                        Page 13
                         Improved Controls Are Needed to Ensure That
                   All Planned Corrective Actions for Security Weaknesses
                       Are Fully Implemented to Protect Taxpayer Data



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Deborah Smallwood, Audit Manager
Louis Lee, Lead Auditor
Cindy Harris, Senior Auditor
Michael Mohrman, Information Technology Specialist




                                                                                     Page 14
                         Improved Controls Are Needed to Ensure That
                   All Planned Corrective Actions for Security Weaknesses
                       Are Fully Implemented to Protect Taxpayer Data



                                                                    Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Director, Risk Management Division OS:CTO:SP:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Office of Research, Analysis, and Statistics RAS




                                                                          Page 15
                                  Improved Controls Are Needed to Ensure That
                            All Planned Corrective Actions for Security Weaknesses
                                Are Fully Implemented to Protect Taxpayer Data



                                                                                                           Appendix IV

        Assessment of Eight Planned Corrective Actions
              That Were Not Fully Implemented

  Weaknesses
 From Issued                                                        Planned                        TIGTA’s Assessment:
 Audit Reports             Recommendations                      Corrective Actions              Corrective Actions Not Taken
Ref. No.             The Chief Information Officer        Cybersecurity’s Computer Security    Implementation: Partial
2008-20-029          should expand the criteria used      Incident Response Center will
                     for scanning IRS databases for the   implement and expand a quarterly     The IRS is using the Guardium
PCA 1-3-11           presence of administrator            database scanning component to its   scanning tool, rather than DBProtect.
                     accounts with default or blank       vulnerability management             Guardium scans are set for critical,
Database Accounts                                                                              major, and patch-level vulnerabilities,
With Default or      passwords.                           program. Application Security
                                                          Inc.’s DBProtect2 will be used.      which include default and blank
Blank Passwords                                                                                passwords. Currently, the IRS is
Continue to Be                                                                                 scanning only Enterprise Operations
Found                                                                                          servers; Windows SQL servers are
                                                                                               not yet being scanned. As was
                                                                                               reported in the 2008-20-029 report,
                                                                                               the IRS is still not scanning all IRS
                                                                                               databases.
Ref. No.             The Director, Office of RAS,         The Office of RAS has disabled       Implementation: Partial
2008-20-176          should require system                accounts that have not been
                     administrators and their managers    accessed in more than 45 days on     The Office of RAS is not identifying
PCA 1-2-1            to:                                  the Compliance Data Warehouse        accounts with inactivity on the CDW
                                                          (CDW) system and will continue to    because it does not have an automatic
The Office of RAS     • Disable accounts that have not                                         script to identify the inactivity. It will
Needs to Implement                                        follow this practice. It will also
                        been accessed in more than        develop and implement a policy of    need to reprogram the CDW so that
Adequate Security       45 calendar days.                                                      locking a user’s UNIX account, used
Controls                                                  removing accounts on the CDW
                                                          that have not been used in more      to access the CDW, does not affect or
                      • Remove accounts that have                                              prevent the user from accessing other
                        not been used in more than        than 90 days.
                                                                                               applications residing on this platform.
                        90 calendar days.                                                      The Office of RAS will be working
                                                                                               on this problem.




   1
     The PCA reference number used throughout Appendix IV consists of three numbers which coincide with
   information from the referenced audit report. The first number accounts for the placement of the finding in the
   report, the second number is the report’s recommendation number, and the third number is the IRS’s corrective
   action for that recommendation, which is from the management response to the audit report.
   2
     DBProtect is a precision database security and compliance solution that helps organizations control their database
   security processes and streamlines key database security activities while enabling organizations to achieve database
   security, minimize risk, and achieve regulatory compliance.
                                                                                                                        Page 16
                                  Improved Controls Are Needed to Ensure That
                            All Planned Corrective Actions for Security Weaknesses
                                Are Fully Implemented to Protect Taxpayer Data



  Weaknesses
 From Issued                                                          Planned                          TIGTA’s Assessment:
 Audit Reports             Recommendations                        Corrective Actions                Corrective Actions Not Taken
Ref. No.             The Director, Office of RAS,          The Office of RAS will use              Implementation: Partial
2008-20-176          should remind managers to             Online 5081 records to validate
                     periodically review Form 5081,        that system access is granted on a      TIGTA reviewed the employees’
PCA 1-4-1            Information System User               need-to-know basis. IRS users will      Online 5081 of one manager and
                                                           not be granted access without first     found that all were contractors.
The Office of RAS    Registration/Change Request,
                                                                                                   TIGTA verified that all but one
Needs to Implement   records to validate that access to    receiving favorable background
                     systems is limited to only those      clearances.                             contractor had a valid background
Adequate Security                                                                                  investigation indicator on the Online
Controls             who have a need. Managers
                     should also be reminded to verify                                             5081 system. TIGTA received
                     that potential users have received                                            verification of a background approval
                     favorable background                                                          letter for the contractor, but the
                     investigations before granting                                                manager provided system access
                     them access to systems.                                                       without knowledge that the
                                                                                                   background investigation had been
                                                                                                   approved. The approval letter was
                                                                                                   obtained from the Contracting Officer
                                                                                                   Representative, not from the manager
                                                                                                   approving access.
Ref. No.             The Director, Office of RAS,          The audit logs will now be retained     Implementation: Partial
2008-20-176          should ensure that audit and          for six years, and the security
                     accountability controls are           officer designated will perform         On June 12, 2013, TIGTA requested
PCA 1-5-1            sufficient by requiring audit logs    these reviews.                          follow-up documentation of audit log
                     to be maintained a minimum of                                                 reviews for Office of RAS systems,
The Office of RAS                                                                                  the YK1 Link Analysis Tool, the
Needs to Implement   six years and to be periodically
                     reviewed by the security officer.                                             Statistics of Income Distributed
Adequate Security                                                                                  Processing System, and the CDW but
Controls                                                                                           has yet to receive them.
Ref. No.             The CTO should ensure that all        The Modernization and                   Implementation: Partial
2009-20-120          backup data are properly              Information Technology Services
                     protected from unauthorized           organization (currently the             The IRS no longer has private vendor
PCA 1-2-1            access and disclosure.                Information Technology                  off-site storage facilities. Backup
                     Specifically, IRS offices should      organization) will ensure that          media is sent to the other campuses or
Although Controls                                                                                  computing centers. IRS personnel
Have Improved,       1) conduct annual inventory           backup media is properly protected
                     reconciliations of stored backup      from unauthorized access and            stated the annual inventory
Additional Steps                                                                                   reconciliation is conducted between
Could Be Taken to    media at all off-site storage         disclosure by ensuring that media
                     facilities in accordance with IRS     management controls and                 the facilities; however, the
Expand the                                                                                         reconciliation is not documented
Reporting of         policy and 2) validate lists of IRS   encryption are in place. In
                     employees authorized to access        addition, it will follow policies and   unless a discrepancy is identified.
Incidents and the                                                                                  Backup media controls and
Protection of        the backup data at off-site storage   procedures for sending and
                     facilities when changes occur or      maintaining backup data to              encryption are in place.
Sensitive Data
Description          at least annually.                    designated off-site storage
                                                           facilities, schedule and conduct
                                                           regular off-site storage facility
                                                           reconciliations as documented in
                                                           IRM 2.7.5, and validate the
                                                           authorized access list with the
                                                           Contracting Officer Representative
                                                           on an annual basis.




                                                                                                                         Page 17
                                     Improved Controls Are Needed to Ensure That
                               All Planned Corrective Actions for Security Weaknesses
                                   Are Fully Implemented to Protect Taxpayer Data



  Weaknesses
 From Issued                                                            Planned                         TIGTA’s Assessment:
 Audit Reports                Recommendations                       Corrective Actions               Corrective Actions Not Taken
Ref. No.                The Commissioners, Wage and           The Wage and Investment and           Implementation: Partial
2010-20-028             Investment and Small Business/        Small Business/Self-Employed
                        Self-Employed Divisions, should       Divisions will direct the sites to    The IRS provided print screens of
PCA 1-6-1               instruct all Automated Collection     document managerial approval on       Online 5081. System administrators
                        System managers to immediately        all elevated Resource Access          conducted quarterly reviews of
Several Access                                                                                      elevated privileges, but they do not
Controls Have Been      review the Online 5081 system         Control Facility privileges as
                        for all of their employees who        reflected in the Online 5081          document the reviews or the results.
Implemented, but                                                                                    The Fiscal Year 2010 Operational
Additional Controls     need elevated Resource Access         system. Additionally, both
                        Control Facility privileges to        operating divisions have included     Reviews included security issues.
Are Needed for the
Call Site Employees     ensure that the manager’s             this security issue in their Fiscal
                        approval is documented in the         Year 2010 Operational Review
                        employees’ Online 5081 profile.       Plans.
Ref. No.                The Associate Chief Information       Cybersecurity’s ISR office will       Implementation: Partial
2010-20-051             Officer, Cybersecurity, should        establish a plan that delineates
                        validate correction of                sending out a request for status      The ISR office is no longer sending
PCA 2-1-1               Infrastructure Security and           updates on POA&Ms from the            out a request for status updates nor
                        Reviews (ISR) office’s reported       responsible business unit. As         has the ISR office received all the
The IRS Did Not                                                                                     previously sent requests. In addition,
Ensure That             security weaknesses and               appropriate, the ISR office will
                        recommend a process for               validate the correction of findings   copies of uncorrected weaknesses are
Computer Security                                                                                   not sent to the appropriate business
Weaknesses              reporting weaknesses that remain      in the POA&M during the
                        unmitigated to increase the           POA&M continuous monitoring           unit quarterly to ensure that the
Identified at                                                                                       responsible parties are made aware of
Contractor Facilities   accountability of the responsible     process or during follow-up
                        parties for remediation of security   security reviews. In addition, the    the need to remediate weaknesses.
Are Timely                                                                                          Instead, the ISR office manages the
Corrected               weaknesses.                           ISR office will forward a copy of
                                                              the uncorrected weaknesses to the     weaknesses annually during the
                                                              appropriate business unit quarterly   follow-up reviews on a manually
                                                              to ensure that the responsible        tracked POA&M. The ISR office
                                                              parties are made aware of the need    ceased quarterly distribution in 2012
                                                              to remediate weaknesses.              due to a limited response from the
                                                                                                    Contracting Officer Representatives,
                                                                                                    planned migration to the Archer
                                                                                                    Tool,3 and planned changes in the
                                                                                                    ISR office standard operations
                                                                                                    procedures. The ISR office plans to
                                                                                                    use the Archer Tool in the future for
                                                                                                    both storage and tracking once the
                                                                                                    data have been uploaded onto the
                                                                                                    system.




   3
     The Archer Tool offers management solutions to facilitate continuous monitoring by collecting, organizing, and
   displaying all technical data scan results from information technology tools and analyzes the results with a single
   risk-scoring capability.
                                                                                                                           Page 18
                                 Improved Controls Are Needed to Ensure That
                           All Planned Corrective Actions for Security Weaknesses
                               Are Fully Implemented to Protect Taxpayer Data



  Weaknesses
 From Issued                                                       Planned                          TIGTA’s Assessment:
 Audit Reports            Recommendations                      Corrective Actions                Corrective Actions Not Taken
Ref. No.            The CTO should ensure that           The Associate Chief Information        Implementation: Partial
2011-20-044         databases with out-of-support        Officer, Enterprise Services, will
                    Database Management System           coordinate with affected               Not all Database Management
PCA 2-2-1           software are upgraded to currently   stakeholders to develop a migration    System software is at the currently
                    supported versions within a          plan to upgrade the Database           supported versions. In addition,
Production                                                                                      scans did not identify all database
Environment         reasonable time period. For those    Management System software to
                    systems where upgrading the          currently supported versions. An       versions due to systems development
Databases Were                                                                                  constraints.
Running             database software or                 inventory of all servers with
Out-of-Date         implementing security patches        databases on them and their
Database Software   have been determined to be           associated versions will be created.
That No Longer      dangerous to the stability of the    The Enterprise Services
Receives Security   system, a migration plan should      organization will then outline steps
Patches and Other   be developed and a properly          to take to address versions older
Vendor Support      approved deviation should be on      than n-1 and updates will be
                    file to justify departure from       installed accordingly. The
                    stated standards.                    Enterprise Services organization
                                                         will establish ongoing monitoring
                                                         of servers and institutionalize a
                                                         process to keep software current.




                                                                                                                     Page 19
            Improved Controls Are Needed to Ensure That
      All Planned Corrective Actions for Security Weaknesses
          Are Fully Implemented to Protect Taxpayer Data



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 20
      Improved Controls Are Needed to Ensure That
All Planned Corrective Actions for Security Weaknesses
    Are Fully Implemented to Protect Taxpayer Data




                                                    Page 21
      Improved Controls Are Needed to Ensure That
All Planned Corrective Actions for Security Weaknesses
    Are Fully Implemented to Protect Taxpayer Data




                                                    Page 22
      Improved Controls Are Needed to Ensure That
All Planned Corrective Actions for Security Weaknesses
    Are Fully Implemented to Protect Taxpayer Data




                                                    Page 23
      Improved Controls Are Needed to Ensure That
All Planned Corrective Actions for Security Weaknesses
    Are Fully Implemented to Protect Taxpayer Data




                                                    Page 24
